Review of the SEC’s Compliance
with the Freedom of Information
Act




                                               September 25, 2009
                                                   Report No. 465
Prepared by: Elizabeth A. Bunker, Contractor
Review of the SEC’s Compliance with FOIA            September 25, 2009
Report No. 465

                                           Page i
Review of the Securities and Exchange
Commission’s Compliance with the
Freedom of Information Act
                           Executive Summary
Background: The Freedom of Information Act (FOIA or Act), was enacted in
1966. It was amended in 1974, 1976, 1986, and most recently, in 2007 to narrow
the scope of FOIA exemptions and the ability of agencies to withhold information.
The Act provides that any person has a right to access federal agency records,
with certain exceptions, that address issues such as national security and
personal rights. Pursuant to the Act, the right of access is enforceable in court.
Agencies are required under the Act to respond to FOIA requests within 20-
working days and to notify requesters of their right to appeal a response that
denies the request to access records. In a Memorandum to the Heads of
Executive Departments and Agencies, issued January 21, 2009, President
Obama directed FOIA to be administered with a “presumption in favor of
disclosure,” which emphasizes the importance of transparency and openness in
government.

Executive Order 13392 “Improving Agency Disclosure of Information” was issued
on December 14, 2005 (Executive Order 13392), and directs federal agencies to
become more “citizen-centered and results-oriented” in responding to FOIA
requests. Additionally, pursuant to the Executive Order federal agencies provide
the public with information on their FOIA requests, designate liaisons to interact
with the public, and appoint senior-level Chief FOIA Officers to oversee the FOIA
process. Executive Order 13392 was followed by the Openness Promotes
Effectiveness in our National Government Act of 2007 (OPEN Government Act),
which affirmed the requirements of the Executive Order, further limited
extensions to a 20-day time period, and added a new “Office of Government
Information Services.”

At the U.S. Securities and Exchange Commission (SEC or Commission), the
Office of Freedom of Information Act and Privacy Act Operations (FOIA/PA
Office) processes FOIA requests. The FOIA/PA Office receives the initial FOIA
requests from the public and then identifies the appropriate Commission office or
division that has the capability to address the FOIA request. The FOIA/PA Office
coordinates record searches with the relevant Commission offices/divisions to
provide a consolidated response to a requester. The Office of General Counsel
(OGC) reviews and makes all Commission FOIA appeal determinations.


Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465

                                           Page ii
At the end of Fiscal Year (FY) 2008, the FOIA/PA Office had 27 full-time
personnel. Although the office’s total FOIA processing costs amounted to $4.29
million, it collected $62,466 in processing fees, representing only 1.45 percent of
the FY’s FOIA processing costs. During FY 2008, the FOIA/PA Office carried-
over 6,909 FOIA requests from the prior year, received 9,586 new FOIA
requests, processed 15,596 FOIA requests, and reduced its FOIA backlog by 87
percent. As a result, 899 FOIA requests were pending at the end of FY 2008.

Objectives: The Office of Inspector General (OIG) contracted with Elizabeth A.
Bunker to conduct a review of the Commission’s FOIA processes and
procedures. The objectives of the review were to assess the:

    1. FOIA/PA Office’s compliance with applicable laws and regulations.

    2. Coordination with FOIA/PA Office liaison staff, select field offices, and the
       Office of General Counsel.

    3. Commission’s compliance with prior OIG audit recommendations.

This review was not conducted in accordance with the government auditing
standards.

Prior OIG Audit Report. In March 2007, the OIG conducted an audit of the
Commission’s FOIA backlog. The audit found that the FOIA backlog was
primarily caused by a large increase in FOIA requests starting in FY 2003. The
increase in FOIA requests came from commercial entities for comment and
response letters that were primarily from the Division of Corporation Finance
(Corporation Finance) and the Division of Investment Management (IM).

In total, the March 2007 OIG report made eight recommendations
(Recommendations A - H) to streamline and facilitate the FOIA process and to
proactively post information for public access via the Commission’s website. We
found that Recommendation G, which involved providing access to the FOIA/PA
Office’s FOIAXpress tracking system, has not been fully implemented. We found
that only two offices (OGC and Corporation Finance) currently use the read-only
access feature of the FOIAXpress database.

The other recommendations in the May 2007 OIG report were either fully
implemented or the responsible office has demonstrated progress in
implementing the recommendations. Corporation Finance expanded its number
of staff, restructured work processes, and instituted detailed monitoring and
reporting systems to ensure review and the posting of comment letters on the
SEC website. IM had a smaller backlog, but also added staff and developed a
tracking system to address its backlog. IM staff are also still in the process of

Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465

                                           Page iii
posting the prior years’ FOIA data and continue to post current filings and
comment letters on the SEC’s website.

Results. The OIG found that the manner that the Commission’s Chief FOIA
Officer functioned was not in compliance with the requirements of Executive
Order 13392 or the OPEN Government Act. Prior to our review of the FOIA
program in connection with this report, the Commission had not defined any
explicitly stated authorities, responsibilities, or reporting duties for the Chief FOIA
Officer. During the course of this review, the SEC has taken steps to fill the Chief
FOIA Officer position.

Further, we determined that few FOIA liaisons have developed written policies
and procedures for processing FOIA requests. This increases the risk of error
and could result in information being inappropriately disclosed or the SEC could
withhold information from the public that should be released. Additionally, we
found that the SEC has inadequate or incorrect procedures for disclosing
responsive documents that are not in compliance with Act. We also found that
there is an insufficient separation of the administrative processes between the
initial FOIA determination and the FOIA appeal process. In addition, SEC
management has not established any comprehensive management, supervisory,
or personnel practices for staff that are responsible for FOIA processing. We
determined that SEC management needs to improve the skill set of FOIA liaison
staff by providing them with FOIA training opportunities, updating position
descriptions, and revising FOIA liaison staff’s performance standards to include
FOIA liaison duties. We also determined the following:

   •    Commission staff need FOIA related training that is commensurate with
        their level of FOIA responsibilities;
   •    Inefficient retrieval systems, voluminous paper and electronic records, and
        documents that are not organized for efficient FOIA review contributed to
        delays in processing FOIA requests;
   •    There are duplicate tracking systems that waste time and hinder the
        efficient processing of FOIA requests; and
   •    Only three FOIA liaisons in two offices knew they had read-only access to
        the FOIA request database.

Summary of Recommendations. Our report makes the following
recommendations. The Chairman’s Office shall ensure that the Chief FOIA
Officer has sufficient Commission-wide support to fulfill the responsibilities
outlined in the OPEN Government Act and should affirm the importance of the
FOIA to its mission. The Chief FOIA Officer shall address existing document
review practices to enhance the maximum disclosure of responsive information,
address the deficiencies identified in this report, and comply with the OPEN
Government Act. The Chief FOIA Officer, in collaboration with SEC managers

Review of the SEC’s Compliance with FOIA                              September 25, 2009
Report No. 465

                                           Page iv
and supervisors, should revise the position descriptions, FOIA response task
descriptions, and performance standards for the current FOIA/PA staff members
and liaisons. The Chief FOIA Officer should ensure that appropriate FOIA
training is provided to all Commission staff concerning the responsibility to
comply fully with FOIA requirements. The FOIA/PA Officer should provide
assistance to the FOIA liaisons in order to incorporate the FOIAXpress tracking
system capabilities as appropriate.

The OGC should establish and provide a clear policy to emphasize the
separation of roles and responsibilities between staff members that decide FOIA
appeals and staff members that advise, counsel, or process the initial FOIA
response. To support the proper role of OGC, skills of all FOIA staff should be
strengthened to address the amount and quality of FOIA work demands.




Review of the SEC’s Compliance with FOIA                         September 25, 2009
Report No. 465

                                           Page v
TABLE OF CONTENTS
Executive Summary ...................................................................................................... ii

Table of Contents ........................................................................................................ vi

Background and Objectives .................................................................................. 1

         Background ........................................................................................................ 1
         Objectives .......................................................................................................... 5

Findings and Recommendations .......................................................................... 6

         Finding 1: The Chief FOIA Officer Did Not Have Sufficient Authority to
                    Address FOIA ................................................................................... 6
                      Recommendation 1....................................................................... 8
                      Recommendation 2 ....................................................................... 8

         Finding 2: FOIA Processing Practices Need Improvement ................................ 9
                      Recommendation 3..................................................................... 17
                      Recommendation 4..................................................................... 18

        Finding 3: The OGC May Not Provide an Unbiased Review of FOIA
                   Appeals ............................................................................................ 18
                       Recommendation 5 .................................................................... 20
                      Recommendation 6..................................................................... 20

         Finding 4: FOIA Responsibilities Have Not Been a Commission Priority ......... 21
                      Recommendation 7..................................................................... 25
                      Recommendation 8..................................................................... 25

         Finding 5: FOIA Processing Needs Improved Information Management ......... 25
                      Recommendation 9..................................................................... 30
                      Recommendation 10................................................................... 31




Review of the SEC’s Compliance with FOIA                                                         September 25, 2009
Report No. 465

                                                     Page vi
Appendices

        Appendix I: Acronyms and Abbreviations......................................................... 32
        Appendix II: Scope and Methodology............................................................... 33
        Appendix III: Criteria......................................................................................... 36
        Appendix IV: List of Recommendations ........................................................... 38
        Appendix V: Management Comments.............................................................. 41
        Appendix VI: OIG Response to Management’s Comments ............................. 50

Tables

        Table 1: Costs, Fees, and Staffing for FOIA/PA................................................. 3
        Table 2: Backlog Reduction ............................................................................... 4
        Table 3: Dispositions of SEC and All Federal Agencies ................................... 10
        Table 4: SEC’s FOIA Exemption Denials ......................................................... 11
        Table 5: Median Days Needed to Process FOIA Requests ............................. 26




Review of the SEC’s Compliance with FOIA                                                    September 25, 2009
Report No. 465

                                                  Page vii
                   Background and Objectives

Background
The Freedom of Information Act (FOIA or Act), was enacted in 1966, and is
codified in Title 5 of the United States Code, Section 552. The Act generally
provides that any person has a right of access to agency records, with certain
exceptions. Agency records that are not available to the public through “reading
rooms,” may be made available in response to FOIA requests. All United States
government agencies are required to disclose their records, or portions of the
records, upon receiving a written request, except when the records are protected
from disclosure under one or more of the FOIA’s nine exemptions. Pursuant to
the Act, the right of access is enforceable in court. The Act also generally
requires agencies to respond to FOIA requests within 20-working days and to
notify requesters of their right to appeal a response denying access to records.
According to the Act, “if the government can show exceptional circumstances
exist and that the agency is exercising due diligence in responding to the
request,” the court may allow the agency additional time to complete its review of
the request.

The FOIA’s nine exemptions generally cover the following information:

    1)   Classified national defense and foreign relations information;
    2)   Internal agency personnel rules and practices;
    3)   Material prohibited from disclosure by another law;
    4)   Trade secrets and other confidential business information;
    5)   Certain inter-agency or intra-agency communications;
    6)   Personnel, medical, and other files involving personal privacy;
    7)   Certain records compiled for law enforcement purposes;
    8)   Matters relating to the supervision of financial institutions; and
    9)   Geological information on oil wells.

The FOIA was amended in 1974, 1976, 1986, 1996, and in 2007 to narrow the
scope of FOIA exemptions and the ability of agencies to withhold information.
Each amendment expands the scope of information that is available to the public
by the Freedom of Information Act. Changes implemented in the last decade
demonstrate how Congress and recent administrations have been progressively
modifying the Act to facilitate public access to agency records.

    •    Amendments in 1996 extended FOIA’s provisions to electronic records,
         and required agencies to package information electronically if requested.


Review of the SEC’s Compliance with FOIA                                September 25, 2009
Report No. 465
                                           Page 1
    •   Executive Order 13392, “Improving Agency Disclosure of Information,”
        was issued on December 14, 2005 (Executive Order 13392). Executive
        Order 13392 promoted a “customer service” orientation to the FOIA by
        requiring the establishment of public liaisons, clarifying exemptions, and
        providing tracking numbers for consumers. Executive Order 13392
        ordered agencies to designate Chief FOIA Officers and to address the
        FOIA backlogs of requests. Finally, the Executive Order required that
        agencies report specific monitoring data such as the number of days to
        process FOIA requests and appeals, the number of FOIA requests
        granted and denied, and to report progress in resolving FOIA backlogs.

    •   The “Openness Promotes Effectiveness in our National Government Act
        of 2007,” (OPEN Government Act), modified the FOIA by codifying into
        law most of the provisions of Executive Order 13392, such as the public
        liaisons and the Chief FOIA Officer. The OPEN Government Act further
        limited and defined the 20 day time period to respond to FOIA requests,
        and added a new “Office of Government Information Services.”

    •   Most recently, in a Memorandum to the Heads of Executive Departments
        and Agencies issued January 21, 2009, President Obama directed that
        FOIA be administered with a “presumption in favor of disclosure.” A
        second Memorandum, “For the Heads of Executive Departments and
        Agencies”, issued March 19, 2009 by Attorney General Eric H. Holder Jr.,
        further underscored the goal of maximum disclosure in response to FOIA
        requests. Subsequent guidelines emphasized that the presumption of
        disclosure means that information should not be withheld “simply because
        [an agency] may do so legally.” Furthermore, when an agency determines
        that it cannot make a full disclosure, the Memorandum directs the agency
        to consider if it can make a partial disclosure.

Within the U.S. Securities and Exchange Commission (SEC or Commission), the
FOIA processing function is centralized and the FOIA/PA Office processes all
FOIA requests. The FOIA/PA Office receives the initial FOIA requests from the
public and then identifies which office or division within the Commission should
be contacted to search for records that respond to the request. Personnel in the
FOIA/PA Office coordinate record searches with the relevant Commission office
or division to provide a response to requesters. The OGC reviews and makes
FOIA appeal determinations. Personnel in the FOIA/PA Office also record and
track requests for confidential treatment, provide technical support to OGC in the
event of FOIA litigation, and respond to requests for public information.

As shown in Table 1, Costs, Fees, and Staffing for FOIA/PA, at the end of FY
2007 the FOIA/PA Office had approximately 28 full-time personnel, total FOIA


Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 2
processing costs were $3.78 million, and the Commission collected $140,106 in
fees, which was about 3.7 percent of its actual processing costs.
Table 1 further shows that during FY 2008 the FOIA/PA Office had 27 full-time
personnel, its processing costs were $4.29 million and the office collected
$62,466 in fees, or 1.45 percent of the FY’s processing costs.

        Table 1: Costs, Fees, and Staffing for FOIA/PA
         Staffing Levels                          FY 2007                         FY 2008 
          Number of full‐time FOIA/PA Office personnel                    28              27 
          Number of personnel with part‐time or 
          occasional FOIA duties (In total work‐years or 
          FTEE*)                                                        3.81            6.75 
          Total Number of Personnel (In total work‐
          years or FTEE)                                               31.81          33.75 
          Total Costs (Including staff and all resources)                                   
          FOIA processing (Including appeals)                    $3,509,418   $ 4,052,681  
          Litigation‐related activities                          $   275,921   $    238,685  
          Total costs                                            $3,785,339   $ 4,291,366  
           Fees                                                                             
          Total amount of fees collected by agency for 
          processing requests                                    $   140,106  $       62,466 
          Percentage of Total Costs                                       3.7           1.45 
        Source: SEC FOIA/PA Office Annual Reports for Fiscal Year 2007 and 2008
        *Full-time Equivalent Employees

Backlog Reduction

During FY 2007 through 2008, the Commission’s FOIA/PA Office’s achievements
were noteworthy. Overall, the FOIA/PA Office met and exceeded the backlog
goals that were established in its “Program Action Plan.” The “Program Action
Plan” was required per Executive Order 13392, and was submitted to the
Department of Justice. 1 These results were accomplished with no significant
changes in the FOIA/PA Office’s staffing and overall costs. While other divisions
within the Commission had its staff and resources increased to proactively make
information readily available to the public, the FOIA/PA Office reduced its
backlog and responded to new FOIA requests though neither its staff nor budget
were increased.

Table 2, Backlog Reduction, shows that during FY 2008, the FOIA/PA Office:



1
 The SEC’s “Freedom of Information Act Program Action Plan” was initially submitted to the Department of
Justice and the Office of Management and Budget on June 13, 2006. Revisions were later submitted on
October 13, 2006 and February 1, 2008.
Review of the SEC’s Compliance with FOIA                                              September 25, 2009
Report No. 465
                                               Page 3
        •    Carried over 6,909 FOIA requests that were pending at the end of FY
             2007;
        •    Received 9,586 new FOIA requests; and
        •    Processed 15,969 FOIA requests.

At the end of FY 2008, the FOIA/PA Office had 899 FOIA requests that were still
pending.

            Table 2: Backlog Reduction
            Number of Initial Requests                           FY 2007      FY 2008 
            Requests pending at the end of the preceding FY         10,403       6,909 
            Requests received during current FY                      9,070       9,586 
            Requests processed during current FY                    12,564      15,596 
            Requests pending at the end of the current FY            6,909         899 
            Source: SEC FOIA/PA Office Annual Reports for Fiscal Year 2007 and 2008


Customer Service Orientation

To further address the Executive Order 13392 requirements, the Commission
established a FOIA Customer Service Center (Service Center) and appointed
four public liaisons in March 2006. The purpose of the Service Center and the
public liaisons was to assist in reducing FOIA delays, increase transparency, to
help requesters understand the status of requests, and to assist in resolving
disputes.

To review the Service Center’s effectiveness, we conducted telephone interviews
with 10 of the Commission’s most frequent FOIA requesters. Our sample
population consisted of 8 commercial vendors and 2 journalists. Universally, the
requesters praised the politeness and courtesy of the FOIA/PA Office staff and
noted that service improved significantly. Some referred to the FOIA/PA Office
staff by name and emphasized the staff’s helpfulness and responsiveness. One
commented that while the actual information received was disappointing, the staff
was “wonderful, accessible, and made it clear they were doing all they could.”
Another said “they are like family.”

Particularly, we found that many commercial requesters described and
applauded its proactive negotiations with the FOIA/PA staff, whereby the
requesters could tailor their requests in order to correctly and efficiently receive
information that is actually available. Other requestors agreed to submit multiple
requests in smaller units over a period of time rather than submit a large number
of requests simultaneously to the FOIA/PA Office. These arrangements allowed
the FOIA/PA staff to respond to FOIA requests more effectively. Based on our
interviews, the commercial requesters reported they were generally satisfied with
the efforts of the FOIA staff.
Review of the SEC’s Compliance with FOIA                                         September 25, 2009
Report No. 465
                                               Page 4
The SEC Website
The SEC’s website and its policies for posting, reviewing, and updating FOIA
information are consistent with Executive Order 13392. The SEC staff
responsible for maintaining the website has written policies and procedures to
establish performance standards that ensure information is posted on its website
on a timely basis. A link to the FOIA webpage is easily accessible from the main
SEC website. Updates to the “Frequently Requested FOIA Documents” a
feature of the FOIA webpage, are “typically posted within 24 hours of receipt.”
We found that the Commission’s website management standards exceed the
requirement that quarterly reviews are conducted to assure website information
is current and accurate. Instead, the Commission conducts these reviews every
two weeks. In 2004 the Commission received an award for the best webpage
design in the category of “Financial Services.”


Objectives
Based on our annual plan, the Office of Inspector General (OIG) contracted the
services of Elizabeth A. Bunker to conduct a review of the Commission’s FOIA
process and procedures. The objectives were to review the:

    1. FOIA/PA Office’s compliance with applicable laws and regulations.

    2. Coordination with FOIA/PA Office liaison staff, select field offices, and the
       Office of General Counsel.

    3. Commission’s compliance with prior OIG audit recommendations.




Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 5
               Findings and Recommendations

Finding 1: The Chief FOIA Officer Did Not Have
Sufficient Authority to Address FOIA
         The role of the Chief FOIA Officer, as established by the
         Commission, has not been in compliance with the
         requirements of Executive Order 13392 or the OPEN
         Government Act. The Chief FOIA Officer did not have
         sufficient authority or accountability to address FOIA
         deficiencies.

Both the Executive Order 13392 and the OPEN Government Act requires federal
agencies to appoint a Chief FOIA Officer who has the authority to implement a
wide range of management and policy objectives to ensure the agency’s FOIA
compliance.

While the Commission’s FOIA backlog was a focus of negative publicity in 2006, 2
the role of Chief FOIA Officer was temporarily filled by the FOIA/PA Officer, 3 who
facilitated the Commission’s efforts to reduce the backlog during FYs 2007 and
2008. However, the FOIA/PA Officer did not meet the requirements of Executive
Order 13392 because the Executive Order required that the Chief FOIA Officer’s
position be at the “Assistant Secretary or equivalent level.” 4

In 2007, the Commission assigned the Chief FOIA Officer duty as a collateral
duty of an Office Director. This person resigned from the position in June 2009,
and a new Chief FOIA Officer was designated during the same month. This
person is also an Office Director who serves in the Chief FOIA capacity as a
collateral duty.

During interviews conducted for this review, some staff indicated that they were
not aware of the Chief FOIA Officer’s role. Of the 25 interviews of FOIA liaisons
that were conducted (excluding the Chief FOIA Officer), few people were able to
clearly state the Chief FOIA Officer’s function. In fact, some Commission’s FOIA
liaisons stated they did not know there was such a position or person. The

2
  FOIA Bombs Backlog the SEC, August 31, 2007, CFO.com: An Economist Group. http://community.
dynamics.com/blogs/financeheadlines.
3
  The FOIA/PA Officer is an SK-17 position, and heads the SEC’s FOIA/PA Office. This is distinguished
from the Chief FOIA Officer position required under Executive Order 13392 and the OPEN Government Act,
which is a more senior position and has oversight of not only the FOIA/PA program, but other duties as well.
4
  Hodes, Scott A., FOIA Facts: Chief FOIA/PA Officers Named, Law and Technology Resources for Legal
Professionals, February 15, 2006, http://www.llrx.com/node/1459
Review of the SEC’s Compliance with FOIA                                               September 25, 2009
Report No. 465
                                                 Page 6
person appointed as the Chief FOIA Officer stated in our interview that she was
aware of the lack of visibility in the position, but viewed this relative obscurity as
an opportunity to explore the Commission’s compliance to the FOIA with a view
toward developing a suitable role.

We determined that the position did not have a position description within the
personnel structure, personnel classification system, or in the Code of Federal
Regulations (CFR). Furthermore, the Chief FOIA Officer has not been required
to submit reports about FOIA operations to senior Commission management.
Thus, the authority of the role appeared to rest in the Chief FOIA Officer’s
personal influence within the Commission. Without clear authority and
accountability or without senior management’s recognition, a Chief FOIA Officer
may not be effective.

The OPEN Government Act describes a broad set of responsibilities for the Chief
FOIA Officer as follows: “Each agency shall designate a Chief FOIA Officer who
shall be a senior official of such agency (at the Assistant Secretary or equivalent
level). The Chief FOIA Officer of each agency shall, subject to the authority of
the head of the agency shall—”

          (1) Have agency-wide responsibility for efficient and
          appropriate compliance [with the FOIA];
          (2) Monitor implementation [of the FOIA] throughout the
          agency . . .;
          (3) Recommend to the head of the agency such adjustments
          to agency practices, policies, personnel, and funding as may
          be necessary to improve its implementation [of the FOIA];
          (4) Review and report to the Attorney General, through the
          head of the agency;
          (5) Facilitate public understanding of the purposes of the
          statutory exemptions . . .; and
          (6) Designate one or more FOIA public liaisons.”

President Obama’s January 21, 2009 FOIA Memorandum for the Heads of
Executive Departments and Agencies and the March 19, 2009 Memorandum
issued by Attorney General Holder to the Heads of Executive Departments and
Agencies, stressed that the Chief FOIA Officers be “active participants in their
agency’s FOIA operations.”

Seeking to enhance the importance of the FOIA within agencies, Congress
requested that the Office of Personnel Management (OPM) submit a report with
recommended changes in personnel policies to enhance the stature of
government employees who are involved in administering the FOIA. 5 Congress

5
    OPEN Government Act: §11: Report on Personnel Policies Related to FOIA.
Review of the SEC’s Compliance with FOIA                                      September 25, 2009
Report No. 465
                                            Page 7
requested that the OPM consider changes to personnel policies to provide
greater encouragement to employees with FOIA responsibilities including
performance evaluations, pay, promotions, and training. In its response, the
OPM declined to make recommendations, but in recognition of the concern
expressed by Congress and FOIA professionals, issued a letter that stated:

         The challenges identified by the FOIA community center
         around lack of senior leadership support. These issues are
         appropriately addressed through management direction and
         are within the control of individual agencies. 6

It appears this statement is an apt description of the past condition of the Chief
FOIA Officer’s role in the SEC.

During the course of this review, the SEC reconsidered the position of Chief
FOIA Act Officer and created a full-time senior officer level position, for which a
new position description was written and a vacancy advertised. 7 Applications for
the position were accepted by the agency between July 14, 2009 and July 28,
2009. A review of the position description shows that the responsibilities
identified in the OPEN Government Act are now described in the position
description. The position description includes agency-wide responsibility for
coordinating the Commission’s FOIA/PA policies and procedures. As a senior
officer, the Chief FOIA Officer will monitor, report, and advise the head of the
Commission concerning FOIA compliance. The position description, if observed,
will now meet the specifications of the OPEN Government Act. As of this date,
the position has not yet been filled.

Recommendation 1:

The Chairman’s Office shall fill the Chief FOIA Officer position with a qualified
candidate and ensure that the Chief FOIA Officer has the appropriate authority to
implement FOIA and to effectively fulfill the responsibilities outlined in the OPEN
Government Act of 2007.

Recommendation 2:

The Chairman’s Office shall communicate on an ongoing basis to Commission
employees and the public the importance of the Freedom of Information Act
(FOIA) to the agency’s mission. This can be accomplished by updating the
Commission’s FOIA webpage to emphasize the importance of FOIA to the public,

6
  Michael W. Hager, Acting Director, United States Office of Personnel Management, December 16, 2008.
http://www.accesspro.org/OPM_ReportCongress_121608.pdf
7
  This position was advertised by the SEC as a “Chief FOIA/PA Officer,” however, in order to avoid
confusion with the SK-17 FOIA/PA Officer, for purposes of this report, we will refer to the senior officer
position the way it was referenced in Executive Order 13392, as “Chief FOIA Officer.”
Review of the SEC’s Compliance with FOIA                                                   September 25, 2009
Report No. 465
                                                 Page 8
and by issuing an SEC Administrative Notice to Commission employees on an
annual basis.

Finding 2: FOIA Processing Practices Need
Improvement
        There are inadequate or incorrect procedures for determining
        whether potentially responsive documents exist and how
        exemptions, such as Exemption (b)(7)(A), are applied, which have
        the effect of creating a presumption in favor of withholding, rather
        than disclosure, as required by the FOIA. Few FOIA liaisons have
        written policies and procedures for processing FOIA requests, thus
        increasing the risk of errors resulting in the inappropriate disclosure
        of information, or unnecessarily withholding information.

The Presumption of Non-Disclosure
We reviewed data that measured the Commission’s compliance with the FOIA
and found that in all FOIA request disposition categories, the Commission’s
overall rate was significantly lower when compared to all other federal agencies.
Table 3, FOIA Dispositions by SEC and All Federal Agencies, is based on the
2008 reporting guidelines that separate Privacy Act requests from FOIA requests
making the data in the table comparable across all agencies. Table 3 illustrates
the SEC’s disposition of FOIA requests in comparison to ”All Federal Agencies,”
as reported in the SEC’s Freedom of Information Act Annual Reports for FY 2008
(Annual Reports). The table shows that the SEC made “full grants” and “partial
grants” 10.5 and 2.9 percent of the time, respectively. In contrast, “All Federal
Agencies” reported making “full grants” and “partial grants” of information 41.8
and 18.7 percent of the time, respectively.




Review of the SEC’s Compliance with FOIA                              September 25, 2009
Report No. 465
                                           Page 9
     Table 3: Disposition of SEC and All Federal Agencies’ FOIA
     Requests in FY 2008
                                                             Percent of 
                                  Percent of    All Federal  All Federal 
      Disposition of    SEC  
                                SEC Processed    Agencies     Agencies 
      FOIA Requests  FY 2008 
                                  Requests       FY 2008     Processed 
                                                              Requests 
       Granted in Full          1,635              10.5               260,594               41.8 
       Granted in Part           453                2.9               117,032               18.7 
       Denied in Full            612                3.9               25,549                4.0 
       No Information           8,764               56                81,238                13.0 
       Found 
       Total Closed            15,596               ‐‐                623,186                ‐‐ 
     Source: SEC FOIA/PA Office Annual Reports for FY 2008 and the FOIA Post 2009: Summary
       of Annual FOIA Reports for FY 2008

Table 3, also shows that the SEC reported “No Information Found” 56 percent of
time, in comparison to “All Federal Agencies” reporting 13 percent in the same
category.

Our review of the data summarizing request denials showed that while the
percentage of denials the SEC reported in its FY 2008 Annual Report are similar
to the percentages that are reported by other federal departments and agencies,
the exemption most cited for denials in other federal agencies was Exemption 6,
which protects matters of personal privacy. In comparison, the SEC cited
Exemption (b)(7)(A), “Interference with Law Enforcement Proceedings” most
frequently for denials. 8 Below, Table 4, SEC’s FOIA Exemption Denials, shows
the number of FOIA requests that were denied in FY 2007 and 2008 claiming
one or more of the nine exemptions. Specifically, the Commission issued 865
and 1,192 exemption denials in FY 2007 and 2008, respectively.




8
  5 U.S.C. §552: (a) “Each agency shall make available to the public information . . . (b) This section does
not apply to matters that are . . . (7) records or information compiled for law enforcement purposes, but only
to the extent that the production of such law enforcement records or information (A) could reasonably be
expected to interfere with enforcement proceedings. . . .”
Review of the SEC’s Compliance with FOIA                                                   September 25, 2009
Report No. 465
                                                 Page 10
Table 4: SEC’s FOIA Exemption Denials
                     Exemption                                            FY 2007         FY 2008 
    (b)(1) National security                                                0                  0 
    (b)(2)  Records related solely to internal rules and practices          47                46 
    (b)(3)  Law specifically exempts the material from disclosure           1                  8 
    (b)(4)  Trade secrets and other confidential business 
    information                                                             132              160 
    (b)(5)  Deliberative process privilege, pre‐decisional                   46              83 
    (b)(6)  Information about individuals                                    70              72 
    (b)(7)(A)  Interference with law enforcement proceedings                518              705 
    (b)(7)(B)  A person would be deprived of a fair trial                    0                0 
    (b)(7)(C)  Unwarranted invasion of personal privacy                      34              70 
    (b)(7)(D)  Confidential source                                           0                1 
    (b)(7)(E)  Techniques and procedures for law enforcement 
    investigations                                                           0                5 
    (b)(7)(F)  Endangering the safety or life of any individual              0                0 
    (b)(8)  Examination of banks and other financial institutions            17              42 
    (b)(9)  Geological and geophysical information                           0                0 
    Total Number of Exemption Denials                                       865             1,192 
Source: SEC FOIA/PA Office Annual Reports for Fiscal Year 2007 and 2008

The SEC’s FOIA process denied the disclosure of information due to exemption
(b)(7)(A) in 67 percent of all FOIA denials in FY 2007 and 66 percent in FY
2008. 9 This exemption is most frequently applied to requests for records from
the Division of Enforcement’s (Enforcement) investigative caseload. We
determined that the deficiencies in the SEC’s method of processing FOIA
requests may account for the frequent use of the FOIA exemption (b)(7)(A) and
may also contribute to request responses identified as “No Information Found.”
These deficiencies initially occurred due to inadequate search capabilities such
as searching for documents in key databases. Secondly, we found that
documents are not sufficiently inspected to determine if the information is
potentially responsive and if it can be disclosed. Finally, the volume of
Enforcement’s records prohibits the efficient and timely review of documents.

The steps taken by FOIA/PA Office staff and liaisons to process FOIA requests
for information from The Division of Enforcement (Enforcement) are as follows:

      •   A FOIA/PA Office staff member initially conducts a search in available
          databases to determine if information is available that is related to the
          subject of the request. The database for searching investigative files is
          the Enforcement’s Name Relationship Search Index (NRSI) database.

9
 U.S. Securities and Exchange Commission Freedom of Information Act Annual Report for Fiscal
Year 2007, October 1, 2006 to September 30, 2007 and Fiscal Year 2008, October 1, 2007 to
September 30, 2008.
Review of the SEC’s Compliance with FOIA                                           September 25, 2009
Report No. 465
                                               Page 11
         This step is completed in compliance with the procedures that are
         documented in the FOIA/PA’s office Work Procedures Manual. If the
         NRSI does not locate a reference to the name of an individual or a
         company, the request disposition is categorized as “No Information
         Found.”

     •   If the NRSI database locates a reference, the FOIA/PA Operations staff
         refers the request to the Enforcement liaison who extends the search for
         potentially responsive information using the Case Activity Tracking System
         (CATS 2000) database to conduct a more detailed search.

     •   If the CATS 2000 indicates that the subject of the request is associated
         with an “open” investigation or if the information in the CATS 2000 is
         sufficiently detailed, the FOIA liaison will recommend that the information
         is not released or is not responsive to the request. The SEC’s FOIA
         response cites the FOIA exemption, which most frequently is (b)(7)(A),
         and concludes that disclosing the requested information would interfere
         with Enforcement’s proceedings. Generally, there are no further
         searches.

     •   If either the NRSI or CATS 2000 database indicates that a case is open
         but has no investigative activity or is nearing completion, the Enforcement
         liaison may contact the case attorney for further information or
         recommend that the FOIA staff refer the request to a regional office liaison
         who determines the location of records that are responsive to the request
         and then estimates the volume of information to be processed. Based on
         the liaison’s estimate, the FOIA staff contacts the requestor with the cost
         estimate before proceeding further.

We found that in many cases, this search process actually prevents the
discovery of information that is responsive to FOIA requests. During interviews
we conducted, staff members identified a number of weaknesses in the NRSI
database, which is described as an abstracted summary of the information that is
available in CATS 2000. Repeated studies issued by the Government
Accountability Office (GAO) identified ongoing deficiencies and weaknesses in
Enforcement’s information systems, including CATS 2000, such as inadequate
integration with other systems for data entry and case record updates. 10 Also, a
report the SEC OIG issued in September 2008 revealed that not all Enforcement
staff used CATS 2000 to record investigative activity. 11 The Enforcement’s FOIA
liaison, corroborated by a GAO review, established that a weakness in the CATS
10
   Government Accountability Office (GAO), Greater Attention Needed to Enhance Communication and
Utilization of Resources in the Division of Enforcement, 09-358, March 2009. See also GAO Report 07-830,
and GAO Report 05-670.
11
   SEC Office of Inspector General, Survey of Enforcement’s HUB System, Report, No. 449, September 29,
2008, p. 12.
Review of the SEC’s Compliance with FOIA                                              September 25, 2009
Report No. 465
                                              Page 12
2000 and NRSI systems is that even though a number of investigative cases may
no longer be active, they have not been officially closed in the databases. 12 The
effect of this weakness is that Enforcement investigations, which for all intents
and purposes, are closed, appear in the databases as open. Therefore, the
initial decision, determining if any response information is available, can be faulty
because searches are conducted using databases that have incomplete and
inaccurate information. Thus, searches would show that an Enforcement
investigation is open when it is in fact essentially closed, so the requested FOIA
information relating to that investigation could actually be produced.

The second deficiency that contributes to the inappropriate application of FOIA
exemption (b)(7)(A) is based on the SEC staff’s judgment that without the visual
inspection of documents, the disclosure of any information (including information
available publically) constitutes “interference with law enforcement proceedings.”
There is not a well-documented process for reviewing documents to segregate
potentially responsive documents that can be disclosed and, thus, the search
may not be sufficient—particularly to justify an all-inclusive denial that is based
on FOIA exemption (b)(7)(A). Many decisions concerning the responsiveness of
the records are inferred broadly from the recorded narratives in the CATS 2000
and not by reviewing actual documents.

Notwithstanding Enforcement’s recent efforts to close cases that are inactive,
cases labeled as “open” that show some investigative activity in the CATS 2000
are most often presumed to be exempt from disclosure unless the Enforcement
FOIA liaison can determine that a case is waiting for payments (e.g., penalties or
disgorgements) and that responsive information--with proper approval--can be
disclosed. Thus, instead of actually reviewing relevant documents relating to the
investigation that is the subject of the FOIA request, the FOIA liaison relies upon
a database that does not fully have accurate information and makes the decision
to withhold any and all potential responsive documents in their entirety. Also, we
determined that insufficient time and attention is paid to determining if a partial
FOIA release could be made.

The third obstacle encountered by the Enforcement FOIA liaisons and the
FOIA/PA Office staff is the volume and organization of documents that have to
be reviewed, segregated, and redacted to properly process the information that is
subject to FOIA exemption (b)(7)(A). Consultations with information
management staff from Enforcement reveal that the volume of information has
increased beyond the capabilities of the available staff to address FOIA requests.
The result is that case records, whether closed, open and inactive, or open and
active, are not consistently reviewed for information that might be responsive to
FOIA requests, because an exhaustive search to segregate releasable
documents is often judged not to be feasible. While the volume of records is

12
  GAO Report: 09-358, p. 18.
Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 13
never stated as a basis for a denial, the expense and time that is needed to
review the documents effectively deprives the requester of a legitimate response.

The inadequate review of documents is not limited to documents from
Enforcement. For FOIA requests in other SEC offices/divisions, there are similar
processes that may also be inadequate. The steps are similar to the process
followed by the Enforcement liaisons. The FOIA/PA Office analyst sends the
relevant office or division a copy of the FOIA request and asks the liaison to reply
with the responsive records. If the liaison determines there are responsive
records, the records are usually sent to the FOIA/PA Office for processing and
subsequent release. If the liaison indicates that there are no responsive records,
or that an exemption to the disclosure applies, the FOIA analyst does not review
the records to confirm the liaison’s judgment.

Administrative Appeals of Exemption (b)(7)(A)
We also found evidence that OGC supports and defends the practice of limited
and perfunctory document review. 13 We examined 19 FOIA appeal file cases
that were closed during FY 2007 and FY 2008. Our sample of 19 administrative
appeal files included 16 appeals from commercial requestors, 2 from media
requesters, and a disputed fee charge from an individual requestor. Based on
our review, we found 10 examples of legal memoranda that were prepared by
OGC attorneys and contained standardized, boilerplate legal explanations
upholding the SEC’s routine application of FOIA exemption (b)(7)(A). The legal
memoranda clearly stated the Commission’s policy as follows:

        The appeal file reflects that the FOIA/PA Officer acted
        consistently with the Commission’s policy related to requests
        for information contained in active investigation files. (A
        footnote further explained: “The FOIA/PA Officer, as is
        routinely done with such requests, withheld the investigatory
        information in its entirety.”)

Some appeal case files that OIG examined for this review had notes and copies
of emails that documented OGC attorneys’ attempt to verify the status of a case
that was presumed to be “open,” prior to the appeal being decided. However,
there was no record or any affidavit confirming a document review was
completed, nor verifying that responsive records were withheld “which, if
released, could reasonably be expected to interfere with Enforcement’s

13
    According to the DOJ’s Office of Information Policy, the SEC received the third highest number of
appeals among all federal agencies and departments that reported FOIA data to the Department of Justice
for FY 2008. Department of Justice Summary of Annual FOIA Reports for FY 2008. The inadequate
searches for responsive documents described above may account for a large number of the administrative
appeals for denied information.
Review of the SEC’s Compliance with FOIA                                                 September 25, 2009
Report No. 465
                                               Page 14
proceedings,” neither at the time of the initial FOIA response, nor at the time of
the appeal.

The FOIA stipulates exemptions from disclosure as:

         … records or information compiled for law enforcement
         purposes, but only to the extent that the production of such
         law enforcement records or information . . . could reasonably
         be expected to interfere with enforcement proceedings. . . .

         [Furthermore] . . . Any reasonably segregable portion of a
         record shall be provided to any person requesting such
         record after deletion of the portions which are exempt under
         this subsection. 14

In our review, we found many cases where no efforts were made to segregate
portions of records for disclosure purposes. Accordingly, the effect was a
practical presumption in favor of withholding information, rather than the
disclosure as required by the Freedom of Information Act. Of the 1,192
exemption denials that the FOIA/PA Office issued in FY 2008, 196 or 16 percent
of the requesters filed appeals. In FY 2007, there were 865 denials and 143 (16
percent) were appealed. We found that when an initial FOIA decision is
appealed, while a thorough review of responsive documents is still not
performed, OGC personnel will at least contact the staff attorney assigned to the
investigation that is the subject of the FOIA request and obtain oral confirmation
on the status of the investigation. However, because only a small percentage of
requesters challenge the initial denial by filing an appeal, the majority of
requesters are deprived of this added step that is taken by OGC counselors.

The practice of the SEC not conducting a document-by-document review has
been challenged and has resulted in censure by the courts on two recent
occasions. 15,16 These court decisions reveal the SEC’s consistent pattern of
non-disclosure expose the Commission to the costs of litigation and negative



14
   5 U.S.C. §552: The Freedom of Information Act. (b), The Freedom of Information Act Guide,
http://www.usdoj.gov/oip/foia_guide07.htm. March 2007, Printed on June 2, 2009.
15
   Gavin v. SEC, No. 04-4522 2006 WL 1738417 at *3 (D. Minn. June 20, 2006) wherein the court stated
that the SEC “continually and deliberately stalled in fulfilling its obligations to conduct a document-by-
document review of material it seeks to withhold pursuant to Exemption 7(A). In doing so the SEC has
attempted to play by its own rules and [has] disregard[ed] the law.” See Freedom of Information Act Guide,
p. 697.
16
   Aguirre v. SEC, No. 06-1260, 2008 WL 1934342 at *69 (D.D.C. Apr. 28, 2008) the court finds that "there
can be no doubt that the SEC has failed to demonstrate the adequacy of its search." SEC's declaration [of
search for responsive documents] "lacks detail and it makes no reference whatsoever to the search terms or
methods used. Instead, it merely states that SEC staff ‘reviewed their work files’ and ‘followed standard
procedures.’’ " http://www.usdoj.gov/oip/foiapost/2008foiapost20.htm
Review of the SEC’s Compliance with FOIA                                                       September 25, 2009
Report No. 465
                                                  Page 15
publicity. 17 OIG determined that the current SEC practice and policy disregards
the intent of FOIA to maximize disclosure and, more importantly, negates the
principle of openness in government that is embodied by FOIA.

Lack of FOIA Policy and Procedures
Of the 19 FOIA liaisons we interviewed, only 2 liaisons provided OIG with any
written policies and procedures for processing FOIA requests. Most liaisons that
did not have written procedures indicated that they had extensive experience and
were able to adapt their response to the requests appropriately, though the steps
that were followed varied. Staff in the FOIA/PA Office provided OIG with the
office’s procedure manual. A revision of the manual was planned at the time of
this review. It was supplemented by interim written guidance.

FOIA/PA Office staff believe that FOIA is not a priority within the Commission
and FOIA requests do not receive appropriate attention when they are referred to
Commission divisions/offices. Similarly, FOIA liaisons reported that they often
have competing priorities or workload pressures that impact their ability to
adequately address FOIA requests. Liaisons acknowledged that the FOIA/PA
Office staff has procedures that guide FOIA request processing. However,
liaisons are not well-informed about the procedures. Some liaisons developed
their own informal FOIA practices. Others stated that the process depended on
the nature of the FOIA request. Thus, FOIA processing is variable and
inconsistent throughout the SEC.

Absent any formal Commission-wide guidelines and adequate control
mechanisms, we found examples of noncompliance, errors, and confusion
among all FOIA staff in addressing the appropriate release of information. Some
examples and complaints OIG identified were:

        •   Discrimination towards some requesters such as commercial
            requesters whose requests have been identified as an “inappropriate
            use of FOIA;” 18
        •   Improperly processing confidential treatment requests;
        •   The lack of consistency processing requests and applying exemptions;
        •   Confusion assigning responsibility for redacting confidential
            information;
        •   Disclosing information without consulting with the FOIA/PA Office or
            the information source(s);
        •   Mismanaging sensitive information;

17
   Morgenson, Gretchen, Deafened by the SEC’s Silence, He Sued, New York Times, May 28, 2006.
http://www.nytimes.com/2006/05/28/business/yourmoney/28gavin.html.
18
   The SEC’s “Freedom of Information Act Program Action Plan” June 13, 2006 and revised October 13,
2006 and February 1, 2008, p. 4.
Review of the SEC’s Compliance with FOIA                                            September 25, 2009
Report No. 465
                                             Page 16
        •   Compliance with the time limitations requiring request to responses in
            20-days;
        •   Lack of opportunity for feedback, review, or approval of the final FOIA
            responses that are sent by the FOIA/PA Office staff; and
        •   Low priority given to FOIA responsibilities Commission-wide.

Two recent instances demonstrated the negative impact of the SEC’s lack of
clear policies or processes regarding the release of sensitive information that
may be contained in FOIA responses. In one case, the Commission released
documents before the affected office or division was given the opportunity to
review the redacted releases. The second case involved the release of a
document that was provided directly to a requester by OGC without the
knowledge of the affected office or the FOIA/PA Office. The impact of releasing
this information could have potentially impaired an investigation and jeopardized
the FOIA process.

We conducted interviews with requesters and FOIA customers and found that the
Commission’s lack of clarity and commitment to the intent of the Act is obvious.
For example, some requesters reported that while the FOIA/PA Office staff was
very pleasant, their experience with the FOIA process was “overall frustrating.”
Not only were requesters concerned about the “misleading” length of time that it
takes to respond to FOIA requests, they also noted the “extraordinary variability”
of the service they experienced. Several requesters indicated that the FOIA/PA
Office staff did not inform them about the status of their requests and further
stated there was “little confidence in the process” or evidence of a “good faith
effort.” Several requestors stated that the FOIA/PA staff members “did all they
could” but they would like to see more “transparency” from the Commission. One
requestor informed OIG that there were difficulties with the Commission’s FOIA
process that “bordered on abusive.”

These issues were not equally reported by staff members across the
Commission or by all requesters. But, the fact that these issues were raised by
the public, as well as by SEC staff members indicates that there is a weakness in
the FOIA internal controls that puts the Commission at risk. Clear policies,
adequate supervision, and specific guidelines are needed to help facilitate
effective and efficient FOIA operations. This further ensures compliance with
governing laws and regulations, which in turn safeguards the public’s confidence
in the Commission.

Recommendation 3:

The Chairman’s Office shall direct the Chief FOIA Officer to ensure that:
   • Accurate searches are made for responsive information that go beyond
     information available in the databases,

Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 17
    •   In the event of a denial to disclose information, documented evidence is
        provided to certify that there was a document-by-document review to
        segregate responsive records.

Recommendation 4:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to provide guidelines or written policies and procedures for all FOIA
related staff that specifically address the concerns raised in this review, as
follows:

        •   Discrimination towards some requesters;
        •   Improperly processing confidential treatment requests;
        •   The lack of consistency in processing requests and applying
            exemptions;
        •   Confusion in assigning responsibility for redacting confidential
            information;
        •   Disclosing information without consulting with the FOIA/PA office or the
            information source(s);
        •   Mismanaging sensitive information;
        •   Failure to comply with the time limitations requiring request to
            responses in 20-days;
        •   Lack of opportunity for feedback, review, or approval of the final FOIA
            responses that are sent by the FOIA/PA office staff; and
        •   Low priority given to FOIA responsibilities Commission-wide.



Finding 3: The OGC May Not Provide an
Unbiased Review of FOIA Appeals
        There is an inadequate separation of administrative
        functions in the FOIA appeals process that compromises a
        fair and unbiased review of FOIA appeals. Individuals who
        participate in making the initial FOIA determination cannot
        participate in the adjudication of FOIA appeals.

A FOIA requester has the right to appeal decisions that are made by the
FOIA/PA Office. The appeal is sent to the FOIA/PA Office and to OGC where it
is reviewed and adjudicated within 20-business days. To understand the
Commission’s appeal process, we reviewed a judgmental sample of 19 appeal



Review of the SEC’s Compliance with FOIA                            September 25, 2009
Report No. 465
                                           Page 18
files. 19 The sample population consisted of appeals that were submitted by the
typical appellant. All appeal files, except for three, were from commercial
requestors who had appealed the SEC’s initial response. The three non-
commercial requestors in our sample consisted of two media requesters, and an
individual requester who was disputing a fee charge.

We issued a survey to FOIA liaisons and found that 60.6 percent identified OGC
as a resource for information about the FOIA. The FOIA/PA Office staff and
liaisons throughout the Commission told us they often sought advice from OGC
concerning the correct interpretation and application of exemptions during the
initial processing of FOIA requests. The survey also revealed that a number of
FOIA liaisons are attorneys who have the capability (with some training) to
decide how to apply exemptions to FOIA responses on behalf of their office or
division. However, not all liaisons are lawyers and they may not have access to
legal support within their office or division or from the FOIA/PA Office.

We found that some personnel in OGC, who counsel staff during the initial FOIA
request process, may later evaluate the same appeal decision. This results in a
potential conflict of interest that raises concerns about OGC’s ability to render
unbiased appeal opinions. Some FOIA liaisons stated that OGC counselors are
careful to provide options and legal considerations without making a
recommendation. OGC counselors acknowledge that they may give advice in
the initial FOIA request process, and later make a recommendation on the same
matter if the decision is appealed. But OGC counselors argue that they are able
to separate the advice they give in the initial decision from making
recommendation for appeal determinations. Furthermore, they stated that they
can assess the merits of an appeal independently and objectively even when
they have given advice on the initial decision. The Associate General Counsel
stated that he believes that “the practice (of providing advice regarding the FOIA)
is not only appropriate, but he encourages it.” Other personnel we interviewed
indicated that OGC’s role was necessary because legal expertise was not
available until recently within the FOIA/PA Office to support the FOIA liaisons
needing legal advice.

The Administrative Procedure Act 20 that governs the practice and proceedings of
federal administrative agencies such as the SEC states as follows:

        An employee or agent engaged in the performance of
        investigative or prosecuting functions for an agency in a
        case may not, in that or a factually related case, participate


19
   The list was generated by the FOIAXpress Tracking System, which is the FOIA/PA Office’s FOIA request
tracking system.
20
   5 U.S.C.A. §554 (d) (2): Adjudications.
Review of the SEC’s Compliance with FOIA                                            September 25, 2009
Report No. 465
                                              Page 19
        or advise in the decision, recommended decision, or agency
        review . . . .

The “separation of powers” is an administrative principle of safeguards to limit the
authority and actions of staff to ensure accountability, impartiality, and objectivity.
We determined that this principle also applies to processing FOIA requests and
appeals. Under the CFR, requests for information under the FOIA are directed to
the FOIA/PA Officer. 21 Staff in the FOIA/PA Office, together with Commission
staff members who are subject matter experts, have the authority to grant or
deny FOIA requests and to determine the proper FOIA exemption. The OGC
has “the authority to grant or deny all appeals. . .” 22

The SEC’s current practice of having the OGC attorney that provides advice to
initially deny a FOIA request and then decides the appeal based on his/her own
advice, compromises the FOIA process and deprives FOIA requesters from
receiving an impartial and unbiased review during the appeal process. 23

Recommendation 5:

The Office of General Counsel shall provide and enforce a clear policy of the
separation of roles and responsibilities and stipulate that the Office of General
Counsel lawyers who provide advice and counsel regarding any initial Freedom
of Information Act request shall not participate in the appeal process.

Recommendation 6:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to ensure that sufficient legal expertise is available to the Office of
Freedom of Information Act/Privacy Act Operations staff to process FOIA
requests in compliance with the Freedom of Information Act, to correctly apply
the exemptions, and to provide legal support to Commission staff regarding the
Act.




21
   17 CFR 200.80(d)(1): Requests for Commission records and copies thereof--
22
   17 CFR §200.80(d)(6): Administrative Review.
23
   The OGC points out that under the CFR, OGC is “the Commission’s advisor with respect to legal
problems arising under the Freedom of Information Act . . . .” 17 CFR §200.21 (a). While that is true, the
CFR also specifically provides that the Chairman or General Counsel may separate these functions if the
lack of a separation would be deemed “inappropriate.” 17 CFR §200.21 (b)(1)(2).
Review of the SEC’s Compliance with FOIA                                               September 25, 2009
Report No. 465
                                               Page 20
Finding 4: FOIA Responsibilities Have Not Been a
Commission Priority
        Commission managers have not applied adequate
        management, supervision and personnel practices
        concerning its staff responsible for FOIA processing. These
        deficiencies include providing training opportunities, and
        including FOIA liaison duties in position descriptions and
        performance standards. All Commission staff needs FOIA
        related training commensurate with their level of FOIA
        responsibilities.

Issues Faced by all FOIA Staff
The burden to meet the Commission’s obligation to obey the law is incorporated
in the Act and falls mostly on the FOIA/PA Office staff and the FOIA liaisons.
Responding to the FOIA requests involves virtually all Commission staff.
Requests are physically received and transmitted back through the FOIA/PA
Office staff, but the FOIA liaisons facilitate substantive searches. Liaisons need
subject matter experts (i.e., investigators, analysts, administrators, etc.) who are
most familiar with the information to produce the response to FOIA requests and
who must understand the increasingly stringent requirements of the FOIA.

As the axis of the Commission’s FOIA process, the FOIA/PA Office staff and
FOIA liaisons have common observations and challenges that they face in
responding to FOIA requests. These include:

        •   Mandated time limitations that do not account for the complexity of
            Commission activities;
        •   The sheer volume of information generated by the Commission;
        •   Multiple information and records systems;
        •   Increasing numbers of FOIA requests;
        •   Rising requester expectations for responsiveness;
        •   Sophisticated and complex FOIA requests;
        •   Conflicting work priorities wherein addressing FOIA requests competes
            with “substantive work;” and
        •   The SEC’s functions emphasizing the protection of information that
            conflicts with the FOIA’s objectives for openness and transparency.

The FOIA Liaisons
The FOIA/PA office staff has successfully developed efficient response
processes for the majority of requests that are received, especially in addressing
Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 21
responses to commercial vendors. However, when a request requires additional
consultation or research, the request is referred to a FOIA liaison. The FOIA
liaison’s role in facilitating a timely and appropriate response and returning the
information to the FOIA/PA Office is pivotal to the Commission’s success in
processing FOIA requests.

To understand the concerns experienced by the FOIA liaisons, in May 2009, we
distributed a survey to all the SEC’s designated FOIA liaisons and the FOIA/PA
Office staff. There are 40 designated FOIA liaisons that are in 33 Commission
offices or divisions and 72.7 percent responded to our survey. The FOIA liaison
responses to the survey revealed the following:

     •   Eighty-seven percent spend as little as 10 percent and as much as 40
         percent of their time processing from 3 to 50 requests each month. 24 For
         the remaining liaisons, responding to FOIA requests is their full-time role.

     •   Fifty-three percent “Agree” that processing FOIA requests interferes with
         their normal workload.

     •   Fifty-four percent of FOIA liaisons reported that their FOIA responsibilities
         were not included in their position description or performance plans.

     •   Twenty-one of 33 (63.6 percent) respondents reported that they had no
         prior FOIA-related experience.

     •   Only five out of 33 liaisons indicated they had received formal training.

     •   Most liaisons reported that they relied on their predecessors, or relied on
         FOIA/PA Office staff (83.8 percent) or OGC staff (60.6 percent) to answer
         their questions about FOIA.

     •   Almost all respondents indicated that training is needed to understand the
         FOIA/PA Office procedures and to better understand the FOIA law;
         specifically they requested updates in appeal and trial cases, applying
         exemptions, Privacy Act training, and the opportunity to attend
         Department of Justice FOIA-sponsored classes.

Almost all the liaisons’ FOIA job duties and responsibilities are secondary to their
primary job. The majority of liaisons reported they were not clear on how or why
they were assigned as a FOIA liaison. One liaison reported feeling she was
“being punished” when she was assigned to be the FOIA liaison. Many liaisons

24
   This estimate excludes the number of FOIA requests processed by three offices/divisions that receive
from 100 to 500 FOIA requests per month. For FOIA liaisons with a high FOIA request volume, FOIA duties
may be their primary job.
Review of the SEC’s Compliance with FOIA                                               September 25, 2009
Report No. 465
                                               Page 22
do not believe that their FOIA role is valued. Another liaison said that “FOIA is
the step-child” of the Commission. Further, some liaisons complained about staff
or management’s apathy, the lack of cooperation from colleagues, and staff’s
resistance towards FOIA responsibilities.

Liaisons also expressed concern about the FOIA/PA Office staff. Liaisons
reported that FOIA/PA Office staff sometime makes “small but critical” errors
when referring FOIA requests. There are also questions about the methods that
are used to search databases and public sources in responding to FOIA requests
that are incorrectly referred to liaisons. In addition, there is concern that the
FOIA/PA Office does not have adequate resources to address complex legal
questions. Finally, FOIA liaisons reported that there is insufficient
communication and feedback between the FOIA/PA specialists and OGC
concerning FOIA decisions to redact, disclose, or deny information, which
exemptions should be applied, and the outcome of appeals.

The FOIA/PA Office Staff
Since 2007, the FOIA/PA Office has reduced its FOIA request backlog
substantially. Both the FOIA/PA Office staff and liaisons report that the FOIA
process has improved and both groups appreciate their mutual roles and value
each other’s friendship and cooperation, yet all agree there are areas that need
improvement.

In May 2009, we distributed a survey to FOIA staff to better assess their
concerns, challenges, and successes. Nineteen of 24 (or 79 percent) of the
FOIA/PA Office staff responded to the survey. The FOIA/PA Office staff attributes
their success in managing a large volume of FOIA requests and reducing its
backlog to good management within the office. They say that streamlined
procedures and a tracking system, the FOIAXpress, have enhanced the staff’s
efficiency. Sixteen of 19 (or 84.2 percent) of the FOIA/PA Office staff reported
participating in one or more FOIA-related training opportunities. However, in the
survey, the respondents also identified the following difficulties they have
experienced in responding to FOIA requests:

    •   Receiving untimely responses from liaisons;
    •   Locating documents;
    •   Dealing with the cumbersome organization of some documents;
    •   Verifying the volume of responsive documents, especially electronic
        documents;
    •   Confirming the correct FOIA exemption to apply;
    •   Segregating responsive information from exempted or non-responsive
        information;
    •   Redacting confidential information;
Review of the SEC’s Compliance with FOIA                          September 25, 2009
Report No. 465
                                           Page 23
     •   Identifying and protecting confidential sources;
     •   Confusing procedures that cover confidential treatment requests;
     •   Changing/evolving FOIA interpretations; and
     •   Negative reactions from requesters.

The FOIA/PA Office staff has become an efficient and productive unit. They
have successfully negotiated with a majority of the commercial vendors making
FOIA requests to ensure timely and appropriate responses. In FY 2007 and
2008 commercial vendor requests accounted for 96.8 and 95.7 percent, 25
respectively, of the FOIA/PA staff workload. These successes, in addition to
reducing the backlog, were achieved during FY 2007 and FY 2008, though the
office’s staffing level did not increase. The office effectively uses the
FOIAXpress system to manage its FOIA requests and report they are constantly
seeking to improve the overall quality of FOIA processing. However, like the
concerns expressed by the FOIA liaisons, many of the FOIA/PA staff members
observed that FOIA requests are becoming more complicated and that
requesters are demonstrating increasing sophistication in their requests.

The Importance of Staff for Effective FOIA Implementation
The Executive Order 13392 Implementation Guidance provided by the
Department of Justice (2006), identified 27 “potential improvement areas” for
agencies to consider when developing their FOIA processing improvement plans;
seven of these improvement areas addressed personnel issues. These include:

     •   Obtaining the necessary cooperation from program personnel;
     •   Incorporating ideas from field office personnel;
     •   Adding FOIA-related training opportunities;
     •   Providing training on FOIA exemptions;
     •   Increasing staffing (where applicable);
     •   Changing personnel practices such as job series, grades, etc.; and
     •   Utilizing contract employees. 26
 
Subsequently, the OPEN Government Act established more rigorous
expectations such as the time that is allotted to respond to requests, thus placing
greater demands on staff numbers as well as staff’s skills. In recognition of the
impact on FOIA staff, the Act placed special emphasis on the importance of
personnel policies. The Act directed the Office of Personnel Management (OPM)
to recommend personnel changes that could be made to “enhance the stature” of
government employees involved in administering FOIA. 27 In response, Michael
W. Hager (Acting Director, OPM), in a letter to the Former Vice President Richard
25
   Special report produced by FOIAXpress and presented by the FOIA/PA Officer, June 17, 2009.
26
   http://www.usdoj.gov/archive/oip/foiapost/2006foiapost6.htm
27
   OPEN Government Act: §11: Report on Personnel Policies Related to FOIA.
Review of the SEC’s Compliance with FOIA                                            September 25, 2009
Report No. 465
                                             Page 24
B. Cheney on December 16, 2008, advised that agencies have the responsibility
and the authority to establish employee performance standards, improve
recruiting and selection methods, set minimum rates of pay, establish career
advancement tracks, and determine training requirements. Attorney General
Holder, in his March 19, 2009 Memorandum to the Heads of Executive
Departments and Agencies, affirmed the responsibility of all staff to respond to
FOIA requests and highlighted the key role played by FOIA professionals.

In the past, the Commission’s response to the FOIA Act may be characterized as
“crisis management.” For example, to address the FY 2007 and FY 2008
backlog, the Commission achieved important advances in FOIA request
processing by creating systems and mobilizing staff in response to
recommendations from OIG Report No. 422. However, it appears there was no
Commission-wide oversight to address on-going and future needs. As described
by the FOIA staff that is responsible for compliance with the FOIA, management
has not addressed basic personnel practices, has neglected to develop and
provide training opportunities, and has not addressed staffing needs to meet the
current and expected future FOIA demands.

Recommendation 7:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to collaborate with the respective office and division managers and the
Office of Human Relations to review position descriptions of current Freedom of
Information Act/Privacy Act (FOIA/PA) staff and FOIA liaisons to include staff’s
appropriate FOIA task descriptions, performance standards, and review pay
grades to ensure that they reflect actual FOIA responsibilities and duties.

Recommendation 8:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to ensure that appropriate training opportunities are provided to all
Commission staff that is appropriate for their level of FOIA responsibilities to
effectively and efficiently process FOIA requests.


Finding 5: FOIA Processing Needs Improved
Information Management
        FOIA reviews are hindered by the variety of and
        inconsistencies in databases and record-keeping practices.
        In addition, there is a lack of clear policies for management
        of both paper and electronic documents. Further, the OIG
        Report No. 422 recommended that read-only access to the
Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                           Page 25
        FOIA request database should be made available to all FOIA
        liaisons. At the time of this review, only three FOIA liaisons
        had been making use of FOIAXpress.

Since 2004, the Commission has taken important policy and procedural steps to
address the demand that information is made more accessible on the SEC’s
website. However, the number of FOIA requests has not decreased as was
expected. Instead, the number of FOIA requests increased by approximately 6
percent between FY 2007 and 2008. Over 95 percent of the 8,000 to 10,000
FOIA requests that the Commission receives each year are from commercial
users. FOIA/PA Office staff negotiated with commercial vendors to tailor their
FOIA requests so that the data is readily available and to ensure the FOIA/PA
Office staff serve the vendor needs more efficiently. The vast majority of these
requests can be researched quickly. However, the sheer quantity of request
consisting of 4,143 commercial FOIA requests that were processed in 2007 and
8,545 commercial requests that were processed in 2008, consumes the FOIA/PA
Office resources.

The SEC’s Annual Reports that were submitted to the Department of Justice for
FY 2007 and 2008 28 identify the median 29 number of days it took the SEC’s
FOIA/PA Office to process FOIA requests. The relative amount of effort that is
required to process these requests is categorized as “simple” or “complex.” A
third category, “expedited” processing, requires that the FOIA/PA Office respond
to the requester within 10 rather than the typical 20-days. Expedited processing
is infrequently granted. 30

                Table 5: Median Days Needed to Process FOIA Requests
                 Simple Requests                  FY 2007 FY 2008 
                 a. Number of requests processed                    9,652     15,463 
                 b. Median number of days to process                   67       66 
                 Complex Requests                                                 
                 a. Number of requests processed                    2,912       65 
                 b. Median number of days to process                  705      570 
                 Requests accorded expedited processing                           
                 a. Number of requests processed                         0       2 
                 b. Median number of days to process                     0       2 
                Source: SEC FOIA/PA Office Annual Reports for Fiscal Years 2007 and 2008




28
   SEC Freedom of Information Act Annual Report for Fiscal Year 2007, October 1, 2006 to September 30,
2007 and Fiscal Year 2008, October 1, 2007 to September 30, 2008.
29
   The median is the middle, not the average number. For example, of the numbers 3, 7, and 14, the median
number is 7.
30
   17 CFR, §200.80 (d)(5)(iii): Expedited Processing.
Review of the SEC’s Compliance with FOIA                                              September 25, 2009
Report No. 465
                                               Page 26
Table 5, Median Days Needed to Process FOIA Requests, indicates that “simple”
requests took 67 median days to process in FY 2007 and 66 median days in
2008. The median number of days it took to process “complex” requests was
705 days in 2007 and 570 days in 2008. Interviews with FOIA staff as well as
FOIA liaisons reflect the general impression that responding to FOIA requests
has become more difficult to complete within the required 20-working days that is
allotted under the Act and even with the additional days that are allowed by law
for unusual and exceptional circumstances and even though extensions can be
given with the requesters’ permission. The OIG determined that the
Commission’s effort to address FOIA requests in a timely manner is not
sufficient.

Information and Records Management
Interviews with the FOIA/PA Officer and staff suggest that a number of factors
inhibit the rapid search and review of responsive records. These factors include
large volumes of documents that must be reviewed, the problematic organization
of documents, locating files from within the Commission’s headquarters and the
11 regional offices, files must be retrieved from long-term storage, and files that
may already have been disposed of, or may be lost.

One of the most frequently requested records are Enforcement’s investigative
files. An initial search to locate investigative files begins with the NRSI database,
which may not be accurate. Potentially responsive files maintained in the
regional offices must be boxed and shipped to headquarters. Files may be in
transit, or have already been transferred to the Branch of Records Management
(BRM) for storage. The BRM manages the tracking of records that have been
sent to the Federal Records Center. Records can also be retrieved from long-
term storage at various Iron Mountain facilities. Records that are sent to storage
facilities require additional time to search and be delivered to the requesting
office. In most cases, there are no indexes to these paper records.

Interviews with the Commission Archivist and a review of BRM management
reports confirm that the FOIA/PA Office is the single biggest user of the BRM and
accounted for 80 percent of all the requests in FY 2008, for which 68.7 percent
were delivered to the FOIA/PA Office. The FOIA/PA Officer credits the BRM for
improving service in the past two years, but stated that waiting for off-site records
either from the regional offices or from BRM accounts for much of the time that is
used to process FOIA requests.

When files are located, the staff assesses the likely presence of the responsive
files. According to instructions from an Enforcement Memorandum issued on
August 20, 1993, investigative files are organized by their content into categories
A through F. Most of the records such as Category A – “Transcripts,” or

Review of the SEC’s Compliance with FOIA                             September 25, 2009
Report No. 465
                                           Page 27
Category B – “The Commission’s Official Records,” all have specific instructions
to segregate the information into folders and to index the material in order to
identify the information in the folder. Category F is a general category that
contains records that are “subject to a FOIA request.” The memorandum further
states that: “no index is required for (Category F) records.” Lacking any other
organizational principle, FOIA/PA staff must review Category F records page by
page, to determine what information is responsive for a given FOIA request. The
requested records can range from a small folder to hundreds of boxes of paper
documents.

Increasingly, documents and evidence that the SEC accumulates are provided in
electronic formats. Interviews with staff in Enforcement and FOIA/PA Office staff
suggest that electronic records are also problematic. Electronic formats often
exacerbate the volume, as well as the complexity and variety of evidence that is
accumulated in the course of an investigation. For example, Enforcement staff
explained that the entire content of several computers may be submitted as
support documentation for an investigation. Organizing such information in order
to facilitate the retrieval and review of complex and voluminous records
challenges the FOIA process even further.

The work flow priority for the FOIA/PA Office staff is to process current requests
first. FOIA/PA Office procedures indicate that any FOIA request response that
requires the review of three or more boxes of documents should be placed in a
multi-tracked “first-in, first-out” (FIFO) queue, and are processed as staff
becomes available, in the order of receipt and in agreement with the FIFO
process. Examples of requests containing large volumes of material include a
request (pending since 2005) that consisted of 300 boxes of records and was
only just completed in 2009. Another request, now under review, contains more
than 245 boxes of records. Currently, there are 17 pending FIFO requests, but
only three requests are being reviewed at this time. Using the FOIAXpress, the
FOIA/PA staff periodically sends letters to the requesters confirming their
continued interest in receiving a response for these requests. Many requesters
withdraw their request for long-delayed FIFO documents.

The FOIA/PA Officer confirms that the current staffing level is not sufficient to
process FIFO requests in a timely manner. On occasion, staff is diverted to
support OGC during FOIA litigation, because litigation support supersedes FIFO
requests. While the FOIA/PA Office staff points to the impressive progress that
they have achieved in reducing the number of pending FOIA requests, the
obstacles experienced by the Commission’s record retrieval system and the
cumbersome organization of records continues to hinder the Commission’s ability
to respond to FOIA requests in a timely way.



Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                           Page 28
Access to the FOIAXpress System
In 2007, the OIG conducted an audit of the Commission‘s FOIA backlog and
issued Backlog of FOIA Requests For Comment Letters, Report No. 422 on
March 30, 2007. The audit report consisted of eight recommendations
(Recommendations A - H) and found, among other things, that the FOIA liaisons
did not have access to the FOIAXpress tracking system and database. In the
audit report, recommendation G specified that the FOIA/PA Office provide such
access to FOIA liaisons in the other offices and divisions who respond to FOIA
requests. In its response to the recommendation, the FOIA/PA Office indicated
that it planned to provide FOIA liaisons with read-only access to the FOIA
request database.

However, Recommendation G has not been fully implemented. Only 3 of 19
designated FOIA liaisons in OGC and the Corporation Finance reported that they
had read-only access to the FOIA database and use the FOIAXpress regularly to
check the FOIA cases that are assigned to them. Other liaisons we interviewed
stated they did not know they had access to the FOIAXpress and did not know
how they would use the information to facilitate FOIA work.

Most of the liaisons have developed their own tracking system and logs to aid in
monitoring the progress of FOIA requests and to document actions that were
taken on FOIA requests. Several liaisons used Excel spreadsheets as their
tracking system or log, and indicated that it took a significant amount of time to
re-enter data that duplicates information already existing in FOIAXpress. Some
liaisons stated they found inconsistencies between their own logs and a year-end
report that was generated by FOIAXpress. Liaisons expressed doubt about the
accuracy of information in the FOIAXpress.

The FOIA/PA Officer stated that all FOIA liaisons were informed that they could
have read-only access to FOIAXpress, and those who responded received
training on how to download the request information (e.g., FOIA number, name of
the requester, received date, target date of the request, etc.), rather than
laboriously re-entering the same data into their own logs. The FOIA/PA Officer
acknowledged the FOIAXpress system is not capable of recording information
that is unique to each office or division, but that much FOIA request data can be
exported from FOIAXpress into an Excel spreadsheet. The FOIA/PA Officer said
there is no software distribution process or special identification or programming
required.

Some features of the FOIAXpress system are not clear and may contribute to the
liaisons’ mistrust of the system. We noted the following examples:



Review of the SEC’s Compliance with FOIA                          September 25, 2009
Report No. 465
                                           Page 29
     •   Tracking numbers from the FOIAXpress system assigned to appeals files
         differed from the tracking numbers utilized by OGC. Therefore, the file
         numbers had to be converted in order to locate the correct appeals files.

     •   The FOIAXpress system’s record of the closing dates assigned to the
         appeal differed when compared to the closing dates recorded in OGC
         files.

The FOIA liaisons reported that the current system for processing FOIA requests
involves an email notification from the FOIA/PA Office, coupled with a copy of the
request. The liaison enters the information into an Excel spreadsheet log before
beginning the search for responsive records, or assigning the search to another
analyst within the office or division. The liaisons reported that they were puzzled
that the request might be several days old before reaching the liaison, thus
reducing the amount of time available to conduct the search and return a
response. The liaisons we interviewed did not have a clear understanding of the
FOIA/PA Office staff processes, how liaisons could improve their responses to
FOIA requests, and the way the FOIAXpress is utilized.

The OPEN Government Act, specifically addresses the timeliness of FOIA
responses. The conditions for “tolling” the time taken by an agency to respond to
a request are specifically delineated. Some “unusual circumstances” may
provide relief from time limitations, but according to the wording of the Act,
“exceptional circumstances” cannot include a predictable workload of requests. 31
We found that notwithstanding the reduction of backlogs, the FIFO negatively
impacts the Commission’s record of FOIA request responsiveness.

Recommendation 9:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer and the Office of Freedom of Information Act/Privacy Act Operations to
collaborate with the Office of the Secretary, the Division of Enforcement, and the
Office of Information Technology to produce a strategy that addresses
information management obstacles hindering timely and comprehensive FOIA
responses. This strategy should contain concrete recommendations, specific
timelines, and cost estimates and should be presented to the Commission for
action.




31
   5 U.S.C. §552(a)(6)(C)(ii) as described in US Department of Justice, FOIA Post,
http://www.usdoj.gov/oip/foiapost/2008foiapost9.htm, “Unusual circumstances” occur when there is a need
to search or collect records from field offices, voluminous records, or consultation with another agency.
“Exceptional circumstances: cannot include “a delay that results from a predictable agency workload. . . .”
Review of the SEC’s Compliance with FOIA                                                   September 25, 2009
Report No. 465
                                                Page 30
Recommendation 10:

The Chairman’s Office shall direct the Chief Freedom of Information Act Officer
to conduct training that is needed to fully implement the productive and suitable
use of the FOIAXpress tracking and document management system.




Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                           Page 31
                                                                          Appendix I

                    Acronyms and Abbreviations

Annual Report                              SEC’s Freedom of Information Act Annual
                                              Report
BRM                                        Branch of Records Management
CATS                                       Case Activity Tracking System
CFR                                        Code of Federal Regulations
Enforcement                                Division of Enforcement
FIFO                                       First-in, First-out
FOIA                                       Freedom of Information Act
FOIA/PA                                    Freedom of Information Act/Privacy Act
FOIAXpress                                 FOIA/PA tracking and document management
                                           system
GAO                                        Government Accountability Office
IM                                         Division of Investment Management
OGC                                        Office of General Counsel
OIEA                                       Chief, Office of Investor Education and
                                             Advocacy
OIG                                        Office of Inspector General
OPEN Government Act 2007                   Openness Promotes Effectiveness in Our
                                              National Government Act of 2007
OPM                                        Office of Personnel Management
NRSI                                       Name Relationship Search Index
SEC or Commission                          U.S. Securities and Exchange Commission
Service Center                             FOIA Customer Service Center




Review of the SEC’s Compliance with FOIA                              September 25, 2009
Report No. 465
                                             Page 32
                                                                        Appendix II


                         Scope and Methodology
This review was not conducted in accordance with the government auditing
standards.

Scope. The scope of the review covered Commission FOIA activities during FY
2007 and 2008 and involved a detailed review of the policies, procedures, and
processes that were in place for processing FOIA requests and appeals in an
effort to determine whether they are consistent with FOIA requirements and
Commission rules. The review included an analysis of the Commission’s
implementation of Executive Order 13392, Improving Agency Disclosure of
Information, an assessment of whether public guidance regarding FOIA requests
and processing was up-to-date, and whether the Commission’s implementation
of the Act was consistent with current requirements as defined in the OPEN
Government Act of 2007 and the recent directives from the Attorney General.
We obtained data from the FIOA/PA Office, OGC, Corporation Finance, IM,
Enforcement, and BRM.

Methodology. To address the objective to review the FOIA/PA Office’s
compliance with applicable laws and regulations, we fielded a survey via the
SEC’s intra-net to the FOIA/PA Office staff in May 2009. 67.8 percent of the
FOIA/PA Office staff responded to the survey. We analyzed FOIA/PA Office staff
responses to the survey to identify issues of compliance with FOIA laws, SEC
regulations as expressed in the CFR and the documented policies and
procedures, and we interviewed 9 of 28 the FOIA/PA Office staff members to
confirm our observations. We reviewed available documentation, including
policies and procedures, the FOIA/PA Working Procedure Manual, the SEC’s
Annual Reports to the Department of Justice, and various tracking logs and
reports. To review the FOIA Customer Service Center’s effectiveness, we
conducted telephone interviews with the Commission’s most frequent FOIA
requesters. Lastly, we tested data to determine if information from the FOIA/PA
Office tracking and documentation system, the FOIAXpress was consistent with
other reports, tracking systems, and logs.

To address the objective to review the coordination with FOIA/PA Office liaison
staff, select field offices, and OGC, we sent a second survey via the SEC’s intra-
net to all designated FOIA liaisons in all the identified SEC divisions/offices, the
field offices, and OGC. We received a response from 72.7 percent of the
designated FOIA liaisons to this survey. We analyzed FOIA liaison responses to
the survey to identify issues of compliance with FOIA laws, SEC regulations as
expressed in the CFR and the documented policies and any available written
Review of the SEC’s Compliance with FOIA                            September 25, 2009
Report No. 465
                                           Page 33
procedures. We interviewed 20 of 40 FOIA liaisons in various Commission
offices and divisions at headquarters and the regional offices to gain an
understanding of the coordination with the FOIA/PA Office of the Commission’s
FOIA process program. We collected and analyzed various tracking logs and
reports and gathered information available on the Commission’s intranet. We
interviewed the four attorneys in the Office of General Counsel responsible for
processing and litigating FOIA appeals. To understand the Commission’s appeal
process we reviewed selected appeal files.

Internal Controls. We reviewed the existing internal controls that were
considered significant within the context of the FOIA program and the evaluation
objectives. We interviewed personnel from the FOIA/PA Office, OGC,
Corporation Finance, and IM, identified and reviewed applicable policies and
procedures, obtained and reviewed available FOIA program documentation, and
tested data for compliance with selected policies and procedures.

Prior Audit Coverage. The OIG previously conducted an audit of the
Commission’s FOIA backlog and issued Backlog of FOIA Requests For
Comment Letters, Report No. 422, March 30, 2007. The March 2007 OIG report
made seven recommendations (Recommendation A - E, and H) to streamline
and facilitate the process of proactively posting information for public access via
the SEC website. We selected FOIA liaisons from the Corporation Finance and
IM division/office to assess their compliance with OIG Report No. 422. Interviews
with the staff responsible for implementing the OIG recommendations revealed
that except for one, key recommendations have been either fully implemented or
demonstrating progress. Recommendation G directed that the FOIA/PA Office
implement its plan to provide FOIA liaisons with access to its FOIA request
database, (the FOIA/PA tracking system is FOIAXpress), and although formally
closed, has not been implemented. We found that only two offices use the read-
only access to the FOIAXpress database, OGC and Corporation Finance.

Use of Computer-Processed Data. We used computer-processed data such
as reports generated by the FOIAXpress system, emails, logs maintained in
Excel spreadsheet form. To the extent practical, we compared the data with
source documents. We did not perform extensive testing of system or
application controls.

Judgmental Samples. All staff with FOIA-related responsibilities were offered
an opportunity to respond to the two surveys. We used judgmental samples to
select staff with FOIA related responsibilities for interviews; although all staff who
requested an interview or identified themselves in the surveys were interviewed.
We requested a list of the ten most frequent requesters from the FOIA/PA Officer
in order to review the FOIA Customer Service Center’s effectiveness and we
conducted telephone interviews with all 10 of the Commission’s most frequent
FOIA requesters. The sample requester population consisted of 8 commercial
Review of the SEC’s Compliance with FOIA                              September 25, 2009
Report No. 465
                                           Page 34
vendors and two journalists. To understand the Commission’s appeal process,
we judgmentally selected 19 of 554 closed appeal files to review that covered FY
2007 and 2008. Included with these 19 were 16 appeals from commercial
requestors, 2 from media requesters, and a single appeal which disputed a fee
charge. We analyzed the appeal process, the number of days to completion, the
disposition, and the number and kinds of exemptions cited.




Review of the SEC’s Compliance with FOIA                         September 25, 2009
Report No. 465
                                           Page 35
                                                                      Appendix III


                                           Criteria

Freedom of Information Act, 5 U.S.C. §552: Governs the FOIA Program.

Administrative Procedures Act, 5 U.S.C.A. §554: Establishes administrative
rules and procedures.

The Freedom of Information Act: Amended in 1974, 1976, 1986, 1996, and in
2007 to narrow the scope of FOIA exemptions and expand the scope of
information available to the public by the Freedom of Information Act.

H.R. 3802: The 1996 amendments to FOIA, sometimes named e-FOIA, extended
FOIA’s provisions to electronic records, and requires agencies to package
information electronically for any requester.

Openness Promotes Effectiveness in our National Government Act of 2007
(OPEN Government Act of 2007): Further modified FOIA by codifying into law
provisions of the Executive Order 13392 and added a new office: the Office of
Government Information Services.

Executive Order 13392, Improving Agency Disclosure of Information,
issued December 19, 2005: Promotes a “customer service” orientation by
requiring the establishment of public liaisons and providing tracking numbers for
consumers. Agencies were to designate Chief FOIA Officers and directed to
monitor specific data points and to report progress.

Code of Federal Regulations, 17 §§200-239: Commodities and Securities
Exchanges is the official codification of Federal regulations established under the
Federal Register Act.

The SEC’s Freedom of Information Act Program Action Plan: Pursuant to
Executive Order 13392, as submitted to the Department of Justice and Office of
Management and Budget, June 13, 2006 and subsequent revisions on October
13, 2006 and February 1, 2008.

The SEC’s Freedom of Information Act Annual Reports: FY 2007, October 1,
2006 to September 30, 2007 and FY 2008, October 1, 2007 to September 30,
2008.


Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                            Page 36
Attorney General's Memorandum for Heads of Executive Departments and
Agencies Concerning the Freedom of Information Act, March 19, 2009.




Review of the SEC’s Compliance with FOIA                September 25, 2009
Report No. 465
                                           Page 37
                                                                      Appendix IV


                        List of Recommendations

Recommendation 1:

The Chairman’s Office shall fill the Chief FOIA Officer position with a qualified
candidate and ensure that the Chief FOIA Officer has the appropriate authority to
implement FOIA and to effectively fulfill the responsibilities outlined in the OPEN
Government Act of 2007.

Recommendation 2:

The Chairman’s Office shall communicate on an ongoing basis to Commission
employees and the public the importance of the Freedom of Information Act
(FOIA) to the agency’s mission. This can be accomplished by updating the
Commission’s FOIA webpage to emphasize the importance of FOIA to the public,
and by issuing an SEC Administrative Notice to Commission employees on an
annual basis.

Recommendation 3:

The Chairman’s Office shall direct the Chief FOIA Officer to ensure that:

    •   Accurate searches are made for responsive information that go beyond
        information available in the databases,

    •   In the event of a denial to disclose information, documented evidence is
        provided to certify that there was a document-by-document review to
        segregate responsive records.

Recommendation 4:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to provide guidelines or written policies and procedures for all FOIA
related staff that specifically address the concerns raised in this review, as
follows:

        •   Discrimination towards some requesters;
        •   Improperly processing confidential treatment requests;
        •   The lack of consistency in processing requests and applying
            exemptions;

Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                           Page 38
        •   Confusion in assigning responsibility for redacting confidential
            information;
        •   Disclosing information without consulting with the FOIA/PA office or the
            information source(s);
        •   Mismanaging sensitive information;
        •   Failure to comply with the time limitations requiring request to
            responses in 20-days;
        •   Lack of opportunity for feedback, review, or approval of the final FOIA
            responses that are sent by the FOIA/PA office staff; and
        •   Low priority given to FOIA responsibilities Commission-wide.

Recommendation 5:

The Office of General Counsel shall provide and enforce a clear policy of the
separation of roles and responsibilities and stipulate that the Office of General
Counsel lawyers who provide advice and counsel regarding any initial Freedom
of Information Act request shall not participate in the appeal process.

Recommendation 6:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to ensure that sufficient legal expertise is available to the Office of
Freedom of Information Act/Privacy Act Operations staff to process FOIA
requests in compliance with the Freedom of Information Act, to correctly apply
the exemptions, and to provide legal support to Commission staff regarding the
Act.

Recommendation 7:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to collaborate with the respective office and division managers and the
Office of Human Relations to review position descriptions of current Freedom of
Information Act/Privacy Act (FOIA/PA) staff and FOIA liaisons to include staff’s
appropriate FOIA task descriptions, performance standards, and review pay
grades to ensure that they reflect actual FOIA responsibilities and duties.

Recommendation 8:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer to ensure that appropriate training opportunities are provided to all
Commission staff that is appropriate for their level of FOIA responsibilities to
effectively and efficiently process FOIA requests.



Review of the SEC’s Compliance with FOIA                            September 25, 2009
Report No. 465
                                           Page 39
Recommendation 9:

The Chairman’s Office shall direct the Chief Freedom of Information Act (FOIA)
Officer and the Office of Freedom of Information Act/Privacy Act Operations to
collaborate with the Office of the Secretary, the Division of Enforcement, and the
Office of Information Technology to produce a strategy that addresses
information management obstacles hindering timely and comprehensive FOIA
responses. This strategy should contain concrete recommendations, specific
timelines, and cost estimates and should be presented to the Commission for
action.

Recommendation 10:

The Chairman’s Office shall direct the Chief Freedom of Information Act Officer
to conduct training that is needed to fully implement the productive and suitable
use of the FOIAXpress tracking and document management system.




Review of the SEC’s Compliance with FOIA                           September 25, 2009
Report No. 465
                                           Page 40
                                                        Appendix V
                          Management Comments




Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 41
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 42
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 43
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 44
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465

                                           Page 45
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 46
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 47
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 48
Review of the SEC’s Compliance with FOIA             September 25, 2009
Report No. 465
                                           Page 49
                                                                                      Appendix VI

               Office of Inspector General’s
           Response to Management’s Comments

The Office of Inspector General is pleased that the Office of the Chairman
concurred with the report’s 8 recommendations addressed to its office. We also
note that the Office of the Chairman partially concurred with recommendation no.
3. We believe that the Chairman’s Office proposed actions are responsive to our
findings and recommendations and are encouraged that the Chairman’s Office
has already taken action to implement a key recommendation addressing the
Chief FOIA Officer position. 32 Once all the recommendations are fully
implemented, we believe that the Commission’s FOIA processes will be
strengthened.

We are disappointed that the Office of General Counsel (OGC) has only partially
concurred with recommendations 3 33 and 5. We believe that both these
recommendations are crucial to ensuring that the public is able to obtain
documents under FOIA in a transparent, complete and timely manner.

Recommendation no. 3 provides that where the SEC denies a request under
FOIA, documented evidence should be provided to certify that there was a
document-by-document review to segregate responsive materials. We believe
that it is important that the SEC complies with both the letter and spirit of the
FOIA. Performing a document-by-document review is a necessary step to
properly withhold documents and to facilitate identification of segregable
documents. As discussed in the report, although President Obama issued a
Memorandum to the Heads of Executive Departments and Agencies on January
21, 2009 directing FOIA to be administered with a “presumption in favor of
disclosure,” the current SEC practices have the effect of creating a presumption
of withholding. It is also worth noting that in OGC’s comments to this report, it
acknowledges that its position that a document-by-document review is not
necessary if an agency establishes categories of documents, has also been
rejected by a federal court. OGC continues to maintain this position even after
our review, and after this same federal court criticized the SEC for deliberately
stalling in fulfilling its obligations under FOIA in a published decision.

32
   We note that the assertion that the Chief FOIA Officer position has been occupied continuously
with senior-level staff is not entirely correct; the first assigned Chief FOIA Officer was not a senior
officer. While subsequent Chief FOIA Officers may have been at the senior level, the major issue
of the finding was that the position did not have sufficient support from the Commission to
effectively function as a Chief FOIA Officer.
33
   While recommendation no. 3 was directed to the Office of the Chairman, it was responded to
by the Office of General Counsel.
Review of the SEC’s Compliance with FOIA                                            September 25, 2009
Report No. 465

                                              Page 50
With respect to recommendation no. 5, we are disappointed that OGC is
unwilling to enforce a clear separation of roles and responsibilities under the
FOIA, and will continue its practice of having the same personnel who counsel
staff during the initial FOIA request process later evaluating the appeal decision,
notwithstanding the conflict. While the Administrative Procedure Act provisions
may not strictly apply in a technical sense, the administrative principle of putting
in place safeguards to limit the authority and actions of staff to ensure
accountability, impartiality, and objectivity are particularly applicable to FOIA, and
we fear that continuing this practice will compromise the FOIA process and
deprive FOIA requesters from receiving an impartial and unbiased review during
an appeal.




Review of the SEC’s Compliance with FOIA                              September 25, 2009
Report No. 465
                                           Page 51
                      Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061 Freedom of Information Act (FOIA)
Fax # 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at
      Commission, contact the Office of Inspector General at:

              Phone: 877.442.0854

              Web-Based Hotline Complaint Form:
              www.reportlineweb.com/sec_oig
